No. ___________
IN THE SUPREME COURT OF THE UNITED STATES

WILLIAM MIXTON, Petitioner,
vs.
STATE OF ARIZONA, Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE ARIZONA SUPREME COURT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner William Mixton requests leave to file the accompanying Petition for
Writ of Certiorari without prepayment of costs and to proceed in forma pauperis.
Petitioner has been granted leave to so proceed before the Arizona Superior Court,
Arizona Court of Appeals, and Arizona Supreme Court. Petitioner is serving a
sentence of 340 years in the Arizona Department of Corrections and does not have
financial resources. The Pima County Public Defender’s Office was appointed by the
Arizona Superior Court to represent Petitioner in his trial and appeal in this case.
Respectfully submitted:

June 10, 2021.
______________________________
DAVID J. EUCHNER
Counsel of Record
Pima County Public Defender’s Office
33 N. Stone Ave., 21st Floor
Tucson, Arizona 85701
(520) 724-6800 voice
david.euchner@pima.gov
Attorney for Petitioner William Mixton

